TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                       Lack of Proper IRS Oversight of the
                      Department of the Treasury HSPD-12
                     Initiative Resulted in Misuse of Federal
                              Government Resources



                                       December 14, 2007

                              Reference Number: 2008-20-030




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 3(a) = Identifying Information - Name of an Individual or Individuals
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                  DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               December 14, 2007


 MEMORANDUM FOR ACTING COMMISSIONER

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Lack of Proper IRS Oversight of the Department
                               of the Treasury HSPD-12 Initiative Resulted in Misuse of Federal
                               Government Resources (Audit # 200720034)

 This report presents the results of our review to assess prior Homeland Security Presidential
 Directive-12 (HSPD-12)1 program management activities and provide Internal Revenue Service
 (IRS) executives with an independent perspective to assist them in future implementation of the
 HSPD-12 program.2
 This report presents the results of our second audit of HSPD-12. The IRS has been designated as
 the lead bureau for ensuring the Department of the Treasury (the Treasury) complies with the
 Directive. In our first review,3 we reported that the IRS was at risk of wasting taxpayer funds
 because the Treasury was developing its own system for issuing the cards rather than joining
 other agencies that had already incurred much of the upfront costs associated with this effort.

 Impact on the Taxpayer
 The total estimated cost to build and maintain an HSPD-12 system for the Treasury is
 $421 million over 14 years. As the lead bureau for the Treasury, the IRS is charged with
 ensuring the funds are spent prudently. The IRS estimated it had obligated $30 million as of
 June 2007. However, $3.5 million was spent on acquisitions that should have been avoided. In


 1
   Policy for a Common Identification Standard for Federal Employees and Contractors (signed by President Bush
 on August 27, 2004). This Directive requires all Federal Government agencies to meet standards for issuing
 identification badges that will be used for entering Federal Government facilities and accessing computer systems.
 2
   Also referred to as “the program” in this report.
 3
   Progress Has Been Slow in Meeting Homeland Security Presidential Directive-12 Requirements (Reference
 Number 2007-20-110, dated June 20, 2007).
                   Lack of Proper IRS Oversight of the Department of the Treasury
                    HSPD-12 Initiative Resulted in Misuse of Federal Government
                                             Resources


addition, the IRS did not administer contracts effectively and could not provide documentation to
support the actual costs charged to the HSPD-12 program. Oversight of the program was
hindered because the IRS, on advice from the Treasury, did not prepare a formal business case4
for the program. As a result, taxpayers could have little confidence their funds were being used
effectively during the early stages of this initiative.

Synopsis
To implement HSPD-12, the IRS initially established an integrated project team to lead its
efforts. In September 2005, the IRS replaced the project team by formally establishing an
HSPD-12 Program Management Office (PMO). In January 2006, the IRS Commissioner
volunteered the IRS to lead the Treasury HSPD-12 program efforts and to deliver a
Departmentwide solution. The Treasury agreed and, in March 2006, the IRS assumed leadership
of the Treasury HSPD-12 PMO.
The integrated project team, and later the PMO, did not effectively manage the contracts for the
HSPD-12 program. Statements of work were too general to hold contractors accountable for
work performed, and the IRS paid contractors without verifying work was performed. The IRS
could not provide supporting documentation for the actual costs spent on the program, and we
found that at least $3.5 million was spent on unneeded hardware, software, and services. The
following specific costs could have been avoided:
    •    $1,940,397 spent to purchase 350,000 Public Key Infrastructure5 certificates in March
         and September 2005.
    •    $837,616 spent to purchase 18 Public Key Infrastructure servers in September 2005 that
         were never used for the program.
    •    $431,035 spent to establish an identification badge laboratory to create a test environment
         for issuing HSPD-12 identification badges.
    •    $91,618 spent to reimburse the General Services Administration for preparing a Request
         for Procurement for acquiring another contractor’s services.
    •    $188,160 paid to a contractor for 1 person to perform clerical duties over an 11-month
         period.
In addition, the IRS did not follow its established governance procedures for overseeing the
HSPD-12 program because it did not prepare a formal business case for the program. An

4
  The IRS uses a business case as the primary tool for capital planning and investment control. The business case
provides a standard format for reporting key details about the investment.
5
  Public Key Infrastructure is an encryption system of digital certificates from authorities that verify and authenticate
the validity of each party involved in an electronic transaction.
                                                                                                                       2
                Lack of Proper IRS Oversight of the Department of the Treasury
                 HSPD-12 Initiative Resulted in Misuse of Federal Government
                                          Resources


invoices before payments are made to contractors; and assigning planned costs, including labor
hours, to project tasks to support all HSPD-12 program costs. The IRS will coordinate with the
Treasury to evaluate the possibility of combining Public Key Infrastructure efforts with those of
the General Services Administration. In addition, the IRS will strengthen the responsibilities of
the executive steering committees and ensure project reporting templates, used by projects at the
assigned governance board, are updated to reflect project status and compliance with the
Enterprise Life Cycle. Management’s complete response to the draft report is included as
Appendix VII.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                4
                      Lack of Proper IRS Oversight of the Department of the Treasury
                       HSPD-12 Initiative Resulted in Misuse of Federal Government
                                                Resources




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          The Program Management Office Did Not Adequately Safeguard
          the Financial Interests of the Federal Government .......................................Page 4
                    Recommendations 1 through 4:.........................................Page 9

          The Internal Revenue Service Governance Process Over the HSPD-12
          Program Was Ineffective ..............................................................................Page 10
                    Recommendation 5:........................................................Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Outcome Measure ................................................................Page 19
          Appendix V – Enterprise Life Cycle Overview............................................Page 21
          Appendix VI – Participants Involved in Oversight of the Department
          of the Treasury HSPD-12 Initiative ..............................................................Page 24
          Appendix VII – Management’s Response to the Draft Report.....................Page 26
          Lack of Proper IRS Oversight of the Department of the Treasury
           HSPD-12 Initiative Resulted in Misuse of Federal Government
                                    Resources




                          Abbreviations

GSA                 General Services Administration
HSPD-12             Homeland Security Presidential Directive-12
IRS                 Internal Revenue Service
PKI                 Public Key Infrastructure
PMO                 Program Management Office
                      Lack of Proper IRS Oversight of the Department of the Treasury
                       HSPD-12 Initiative Resulted in Misuse of Federal Government
                                                Resources




                                                 Background

On August 27, 2004, President Bush signed Homeland Security Presidential Directive-12
(HSPD-12), Policy for a Common Identification Standard for Federal Employees and
Contractors. This Directive established a new standard for issuing and processing Federal
Government identification badges for entering Federal Government facilities and accessing
computer systems. The Office of Management and Budget, which is responsible for overseeing
implementation of the Directive, established the following deadlines for Federal Government
agencies:
       •   October 27, 2005 – Agencies must develop procedures for registering employees, issuing
           cards, and maintaining a card system.
       •   October 27, 2006 – Agencies must demonstrate their ability to issue an identification card
           to a new employee.
       •   October 27, 2007 – Agencies must verify and/or complete background investigations and
           issue identification cards for all employees with fewer than 15 years of service.
       •   October 27, 2008 – Agencies must verify and/or complete background investigations and
           issue identification cards for employees with 15 or more years of service.
To implement HSPD-12, the Internal Revenue Service (IRS) initially established an integrated
project team to lead its efforts. However, the leadership and responsibilities of the program have
changed significantly over the past 3 fiscal years. Figure 1 provides a historical perspective on
the designation of HSPD-12 program1 management oversight responsibilities.




1
    Also referred to as “the program” in this report.
                                                                                              Page 1
                   Lack of Proper IRS Oversight of the Department of the Treasury
                    HSPD-12 Initiative Resulted in Misuse of Federal Government
                                             Resources



       Figure 1: Timeline of the HSPD-12 Program Management Office (PMO)
       First Quarter of Fiscal   The IRS established an integrated project team to lead the HSPD-12 project.
             Year 2005           The Modernization and Information Technology Services organization managed
                                 the project during this period.
         September 2005          The IRS established the HSPD-12 PMO and designated the Mission Assurance
                                 and Security Services organization to assume sole leadership of the program
                                 efforts.
           January 2006          The IRS Commissioner volunteered the IRS to lead the Department of the
                                 Treasury (the Treasury) HSPD-12 program efforts and to deliver a
                                 Departmentwide solution.
            March 2006           The Treasury designated the IRS to assume leadership of its HSPD-12 initiative.
            March 2006           The Treasury HSPD-12 Executive Steering Committee was established to
                                 provide executive-level oversight and support of HSPD-12 implementation
                                 across the entire Department.
             May 2006            The Treasury Bureau Advisory Board was created to serve as the primary
                                 coordination body for the Treasury and its bureaus on matters related to
                                 HSPD-12 planning and implementation.
             May 2007            The IRS replaced the Program Manager and designated the Agency-Wide
                                 Shared Services organization as the lead organization for the Treasury
                                 HSPD-12 initiative.
   Source: Interviews with IRS officials.

The PMO must complete a significant amount of work to comply with the Directive and obtain
identification cards for approximately 150,000 employees who work in the Treasury. The PMO
is led by a Program Manager and the scope of its work includes:
   •    Enrollment – Employees must be fingerprinted and photographed, and their identities
        must be verified.
   •    Card Printing and Finalization – The identification cards must be encoded and printed
        to comply with all HSPD-12 standards, including the encryption of personal data on the
        cards. Each card is printed with an employee’s photograph and other identifiable
        information.
   •    Systems Infrastructure – The identification cards will provide controls over employees’
        access to buildings and eventually be programmed to provide controls over employees’
        access to computer systems. The Treasury will have to develop and maintain a data store
        of employee information, such as where they work and what facilities and computer
        systems they are allowed to access.
   •    Card Maintenance – Identification cards must be updated when employees’
        responsibilities and access needs change.




                                                                                                            Page 2
                  Lack of Proper IRS Oversight of the Department of the Treasury
                   HSPD-12 Initiative Resulted in Misuse of Federal Government
                                            Resources



Our first audit of HSPD-122 determined the PMO was experiencing delays in meeting the Office
of Management and Budget milestones. The PMO was planning to produce its own
identification cards instead of taking advantage of the General Service Administration’s (GSA)
shared services provider, which was being offered to all Federal Government agencies at a low
cost due to the economies of scale. Despite assigning 68 employees to the Treasury HSPD-12
effort, the PMO had not yet purchased the hardware and software necessary to produce the
identification cards and did not expect to complete the program until September 2010, 2 years
after the Office of Management and Budget’s mandated deadline. We recommended the IRS
consider the benefits of using the GSA shared services provider, coordinate with the GSA to
resolve concerns, and customize the GSA solution to meet the Treasury’s needs. The IRS agreed
with our recommendation and now intends to use the GSA shared services provider to the fullest
extent possible.
We conducted this followup review to assess prior HSPD-12 program management activities and
provide IRS executives with an independent perspective to assist them in future implementation
of the program. This review was performed at the IRS National Headquarters in
New Carrollton, Maryland, in the Agency-Wide Shared Services organization during the period
June through September 2007; it focused on activities occurring from the beginning of the
program through May 2007. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objective. Detailed
information on our audit objective, scope, and methodology is presented in Appendix I. Major
contributors to the report are listed in Appendix II.




2
 Progress Has Been Slow in Meeting Homeland Security Presidential Directive-12 Requirements (Reference
Number 2007-20-110, dated June 20, 2007).
                                                                                                     Page 3
                    Lack of Proper IRS Oversight of the Department of the Treasury
                     HSPD-12 Initiative Resulted in Misuse of Federal Government
                                              Resources




                                        Results of Review

The Program Management Office Did Not Adequately Safeguard the
Financial Interests of the Federal Government
The total estimated cost to build and maintain an HSPD-12 system for the Treasury is
$421 million over 14 years. The IRS advised us that, as of June 2007, it had obligated
approximately $30 million. However, the IRS spent at least $3.5 million of these funds on
acquisitions that should have been avoided. In addition, it did not administer contracts
effectively and could not provide documentation to support planned or actual costs attributable to
the HSPD-12 program.

HSPD-12 program funds were used to purchase unneeded hardware, software,
and services
The IRS HSPD-12 integrated project team made several unnecessary purchases in Fiscal
Year 2005. The following costs could have been avoided.
    •    $1,940,397 spent to purchase 350,000 Public Key Infrastructure (PKI)3 certificates in
         March and September 2005. PKI certificates will be needed in the future so employees
         can use their identification cards to access computer systems; however, the IRS does not
         expect to use the cards at this time. The Treasury informed us that the certificates the
         IRS purchased had a 3-year lifespan; however, the IRS was unable to provide us with the
         exact dates on which these certificates would expire.
         Both the GSA and the Treasury have been developing separate PKI strategies. During
         our last review, the Program Manager stated that the need for the HSPD-12 program to
         comply with the Treasury PKI strategy was one of the reasons the IRS did not consider
         earlier use of the GSA shared services provider for the purchase of identification cards.
         To ensure consistency throughout the Federal Government and reduce the duplication of
         effort in providing an effective PKI solution, we believe the Treasury should coordinate
         with the GSA and possibly other agencies to determine the feasibility of developing one
         PKI solution Governmentwide. The GSA has recently endorsed the vendor used by the
         Treasury, which could make the transition easier than in prior years.
    •    $837,616 spent in September 2005 to purchase 18 PKI servers that were never used for
         the HSPD-12 program. We were advised that some of the servers have been used on a

3
 PKI is an encryption system of digital certificates and other authorities that verify and authenticate the validity of
each party involved in an electronic transaction.
                                                                                                                Page 4
                   Lack of Proper IRS Oversight of the Department of the Treasury
                    HSPD-12 Initiative Resulted in Misuse of Federal Government
                                             Resources



        very limited, intermittent basis for other IRS projects. It is clear, however, that the
        servers were purchased prematurely and the funds could have been used more effectively.
        The IRS Enterprise Life Cycle4 is divided into five milestones and requires the purchase
        of hardware and software in the fourth milestone of a project. However, the program had
        not yet exited the first milestone of the Enterprise Life Cycle at the time the servers were
        purchased.
The Treasury HSPD-12 PMO also spent $710,813 that could have been avoided. These
expenditures included:
    •   $431,035 spent from September 2006 through June 2007 to establish and maintain an
        identification badge laboratory to create a test environment for issuing HSPD-12
        identification badges. The laboratory included a computer for the initial processing of
        employees, a credential verification system, and an identification card printer; however,
        most of the costs were for contractor labor. The laboratory has been closed and deemed
        unnecessary now that the Treasury is planning to use the GSA shared services provider
        for card issuance. The PMO did not follow the Enterprise Life Cycle when purchasing
        the lab equipment. Testing and piloting of new systems should occur during
        development and integration, which take place in the fourth phase of the Enterprise Life
        Cycle. The program had not exited the first milestone when the items were purchased.
    •   $91,618 spent in Fiscal Year 2007 to reimburse the GSA for preparing a Request for
        Procurement for acquiring another contractor’s services. The purpose of the contract was
        to assist the PMO in meeting the needs of the Treasury’s own HSPD-12 identification
        card system. The contract to provide these services was cancelled after the Treasury
        decided to use the GSA shared services provider for all identification card services, and a
        contractor was never selected. The PMO was aware that other options were available at
        the time; the Request for Procurement was never used to solicit bids.
    •   $188,160 paid to a contractor for 1 person to provide clerical support over an 11-month
        period. The clerk was responsible for processing documents, maintaining and updating
        the PMO contact list, assigning and tracking equipment, maintaining calendars and
        meetings, and processing trip reports and was billed at $128 per hour. Similar duties
        could have been provided to the PMO using resources already available at the IRS.
We attribute these unnecessary purchases to ineffective program management. The PMO did not
follow the IRS Enterprise Life Cycle and did not carry out its fiduciary responsibilities when
making decisions to purchase hardware and software. A key official from the Modernization and


4
 The Enterprise Life Cycle establishes a set of repeatable processes and a system of reviews, checkpoints, and
milestones that reduce the risks of system development and ensures alignment with the overall business strategy.
All IRS personnel and contractors involved in information technology efforts are required to follow the Enterprise
Life Cycle. See Appendix V for additional details.
                                                                                                            Page 5
                     Lack of Proper IRS Oversight of the Department of the Treasury
                      HSPD-12 Initiative Resulted in Misuse of Federal Government
                                               Resources



Information Technology Services organization informed us the IRS had worked hard to obtain
funding ($15 million) for Fiscal Year 2005 and believed the IRS needed to spend the funds by
the end of the fiscal year. We reviewed procurement documentation and found approximately
90 percent of the program’s Fiscal Year 2005 budget was obligated to contractors during the last
2 months of Fiscal Year 2005. We consider these purchases to be an inefficient use of resources.

Statements of work were incomplete, and the IRS paid contractors without
verifying work was performed
According to the Federal Acquisition Regulation,5 the Contracting Officer is responsible for
ensuring performance of all necessary actions for effective contracting and ensuring compliance
with the contract. In addition, the Contracting Officer is to ensure the contractor(s) receives
impartial, fair, and equitable treatment and request and consider the advice of specialists when
appropriate. The Contracting Officer’s Technical Representative is charged with (1) developing
the specifications on each statement of work in such a manner as to promote competitive
procurement actions and (2) monitoring the contractor’s technical performance to ensure the
performance is strictly within the scope of the contract. Statements of work should clearly define
the scope of the work requested and list specific deliverables describing what is due and when it
is due. Additional duties include coordinating with the project’s program manager on issues
related to funding and to changes in the scope of the work.
The PMO hired three contractors to assist in planning, developing, and implementing the
requirements of the HSPD-12 program. Each contractor was assigned responsibilities to meet
program goals. Specifically:
       •   Booz Allen Hamilton was hired to address stakeholder management, communications,
           and program support.
       •   MITRE was hired to coordinate the program management and business process
           engineering.
       •   Presidio was hired to conduct the technical support work for implementation.
A separate Contracting Officer’s Technical Representative was assigned to each contract.
Statements of work for the MITRE contract were adequate; however, those for the other two
contracts were not well defined.
To set aside or obligate funds for the three contracts, the IRS issued task orders to the
contractors. Task orders were issued to both Presidio and MITRE specifically for work on the
HSPD-12 program. However, the PMO used existing IRS contracts with Booz Allen Hamilton
to perform work related to the program. Instead of issuing a separate task order along with a
statement of work to Booz Allen Hamilton, the PMO charged the HSPD-12 work to existing task

5
    48 C.F.R. ch. 1 (2006).
                                                                                           Page 6
                Lack of Proper IRS Oversight of the Department of the Treasury
                 HSPD-12 Initiative Resulted in Misuse of Federal Government
                                          Resources



Recommendations
The Chief, Agency Wide-Shared Services, should:
Recommendation 1: Require that future task orders prepared by the HSPD-12 PMO clearly
separate tasks by function. Doing so will help each contractor understand the tasks and propose
its solution and will enable the IRS to monitor the contractor’s performance.
       Management’s Response: IRS management agreed with this recommendation. The
       HSPD-12 PMO has initiated a process to establish clear delineation of tasks by functional
       area.
Recommendation 2: Ensure Contracting Officer’s Technical Representatives comply with
procedures that require sufficient supporting documentation for hours worked. The HSPD-12
Program Manager should also be required to provide written certification for labor hours worked
on contracts before any payments are made to contractors.
       Management’s Response: IRS management agreed with this recommendation. The
       HSPD-12 project manager has implemented a process that will ensure the PMO and the
       Contracting Officer’s Technical Representatives are in compliance with existing IRS
       procedures for reviewing invoices prior to making payments to contractors.
Recommendation 3: Ensure the HSPD-12 Program Manager maintains documentation
sufficient to support all program costs and assigns costs to specific tasks in the work breakdown
structure.
       Management’s Response: IRS management agreed with this recommendation. The
       HSPD-12 PMO is now assigning planned costs, including labor hours, to project tasks.
       The IRS will use software to track hours for Federal Government and contractor
       employees for projected earned value and schedule analysis.
The Chief Information Officer should:
Recommendation 4: Coordinate with the Treasury to evaluate the possibility of combining
its PKI efforts with those of the GSA. Progress may be made for ensuring a consistent PKI
approach throughout the Federal Government, and the duplication of effort could be reduced by
taking advantage of the lessons learned from both efforts.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will coordinate with the Treasury to evaluate the possibility of combining PKI efforts
       with those of the GSA. The IRS is using the GSA-provided certificates for the HSPD-12
       compliant Personal Identification Verification cards to be used by new and existing
       employees and contractors.



                                                                                           Page 9
                Lack of Proper IRS Oversight of the Department of the Treasury
                 HSPD-12 Initiative Resulted in Misuse of Federal Government
                                          Resources



the business cases for decision making and for monitoring progress of information technology
investments.
IRS procedures require preparation of a separate business case for any major information
technology investment that:
   •   Requires special management attention because of its importance to the mission or
       function of the agency.
   •   Presents significant program or policy implications.
   •   Requires a total life cycle cost of more than $50 million.
   •   Obligates annual expenditures of more than $5 million.
The HSPD-12 program meets all of the above criteria; however, the PMO did not submit a
separate business case for the program to the Bureau Advisory Board and the HSPD-12
Executive Steering Committee. Information pertaining to the program was consolidated into
another business case for Treasurywide infrastructure costs; therefore, the information could not
be used by the HSPD-12 governance committees in making business decisions for the program.
The decision to consolidate the HSPD-12 business case into a Treasurywide security
infrastructure business case was based on guidance received from the Treasury Capital Planning
and Investment Control Office. This decision is clearly in conflict with the stated requirement
for preparation of a business case.
An internal business case for the program was prepared and submitted in October 2006 by the
PMO but was never shared with the governance committees overseeing the program. In
addition, the internal business case did not include the information normally required by the
Office of Management and Budget and the IRS. Specifically:
   •   Three viable alternatives were not provided. The Office of Management and Budget
       requires agencies to identify and consider at least three viable alternatives, in addition to
       the chosen investment strategy. The analysis should include estimated costs for each
       alternative. One alternative, which should have been provided, is the GSA shared
       services provider. The cost savings that could have been achieved by choosing the
       shared services provider would have been apparent if this alternative had been provided
       to IRS and Treasury executives. The PMO informed us the costs for the shared services
       provider were unknown at the time the business case was prepared. However, cost data
       for the GSA provider were available. Specifically, the GSA notified agencies in
       September 2006 that it would charge $110 for initial card issuance, plus $52 per card for
       annual maintenance.
   •   Actual costs were not provided, and the PMO did not compare actual costs and
       deliverables with budgeted estimates. Analysis of variances between actual and budgeted
       estimates should provide an early warning for determining whether an investment project
       is performing on schedule and within budget. The Office of Management and Budget
       requires agencies to report the cost and schedule performance of investments.
                                                                                             Page 11
                Lack of Proper IRS Oversight of the Department of the Treasury
                 HSPD-12 Initiative Resulted in Misuse of Federal Government
                                          Resources



role to address these challenges and, specifically, to enforce use of the IRS Enterprise Life Cycle
requirements.
       Management’s Response: IRS management agreed with this recommendation. The
       IRS will continue to implement planned improvements in key management processes
       through the continued rollout of program management initiatives. To enforce the use of
       the Enterprise Life Cycle, the IRS will ensure project reporting templates, used by
       projects at the assigned governance board, are updated to reflect project status and
       compliance with the Enterprise Life Cycle. In addition, the IRS Program Governance
       office will update executive steering committee charters to strengthen the committees’
       responsibilities.




                                                                                           Page 14
                  Lack of Proper IRS Oversight of the Department of the Treasury
                   HSPD-12 Initiative Resulted in Misuse of Federal Government
                                            Resources



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess prior HSPD-12 program management activities
and provide IRS executives with an independent perspective to assist them in future
implementation of the program. To accomplish this objective, we:
I.      Identified and reviewed the requirements of HSPD-12 from the detailed guidance
        established by Office of Management and Budget Memorandum 05-24, Implementation
        of Homeland Security Presidential Directive–12 (HSPD-12) Policy for a Common
        Identification Standard for Federal Employees and Contractors (August 2005), and
        Federal Information Processing Standard 201, Personal Identity Verification (PIV) of
        Federal Employees and Contractors (February 2005).
II.     Evaluated the governance process over the HSPD-12 program to determine whether the
        funding decision was warranted and whether the executive steering committees provided
        adequate oversight.
        A. Reviewed the meeting minutes from the governance committees (the HSPD-12
           Executive Steering Committee, Treasury Bureau Advisory Board, and Security and
           Privacy Executive Steering Committee) that were overseeing the program.
        B. Reviewed key program documents provided to the governance committees and
           verified the accuracy and completeness of the documentation.
        C. Determined whether procedures were followed in the approval of the program.
        D. Evaluated the decision to move responsibility for the program from the
           Modernization and Information Technology Services organization to the Mission
           Assurance and Security Services organization in September 2005.
        E. Reviewed the most current business case for the program.
III.    Determined whether the HSPD-12 PMO planned and carried out program tasks
        effectively.
        A. Reviewed the requirements matrix to determine whether key requirements in Federal
           Information Processing Standard 201 were identified.
        B. Reviewed the work breakdown structure1 for the program.


1
 The work breakdown structure should identify what should be done, who will do it, how long it will take, and how
much a program will cost. It should facilitate tracking of the program’s deliverables, milestones, and costs.
                                                                                                        Page 15
                  Lack of Proper IRS Oversight of the Department of the Treasury
                   HSPD-12 Initiative Resulted in Misuse of Federal Government
                                            Resources



        C. Determined whether staffing levels were appropriate for the work scheduled and
           performed and whether the program followed the IRS Enterprise Life Cycle2
           methodology.
        D. Determined whether the program met scheduled and budgeted goals and the
           experience and qualifications of employees in the PMO.
IV.     Determined whether the contracts used to deliver the HSPD-12 business solution were
        appropriate.
        A. Determined whether the appropriate types of contracts were used for the program.
        B. Evaluated the terms of the contracts, including the statements of work, task orders,
           and program deliverables such as status reports, and determined how much has been
           and is obligated to be paid to the contractors.
V.      Evaluated the process used by the HSPD-12 PMO to review and accept contract
        deliverables.
        A. Determined whether the PMO released funds based on accepted deliverables or based
           on hours worked.
        B. Interviewed the Contracting Officer’s Technical Representatives and identified their
           process for monitoring the contractors to ensure the contractors’ work meets the
           contracts’ terms and requirements.
VI.     Determined the total amount of funds possibly misspent on the HSPD-12 program. The
        total funds should include all IRS and contractor labor costs and all hardware and
        software costs.
        A. Determined the total amount expended, committed, and obligated.
        B. Evaluated the timing of the PMO’s decision to scale back the program by adopting
           the GSA shared services provider.
        C. Compared the deliverables and work completed to the amounts spent and determined
           the amounts misspent. We considered the possibility that the decision to forgo use of
           the GSA shared services provider may not have been the only area of
           mismanagement.3




2
 See Appendix V for an overview of the Enterprise Life Cycle.
3
 As identified in our prior report Progress Has Been Slow in Meeting Homeland Security Presidential Directive-12
Requirements (Reference Number 2007-20-110, dated June 20, 2007).
                                                                                                        Page 16
               Lack of Proper IRS Oversight of the Department of the Treasury
                HSPD-12 Initiative Resulted in Misuse of Federal Government
                                         Resources



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Stephen R. Mullins, Director
Thomas Polsfoot, Audit Manager
William A. Gray, Senior Auditor
Louis Lee, Senior Auditor
Thomas Nacinovich, Senior Auditor
Glenn Rhoades, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                     Page 17
              Lack of Proper IRS Oversight of the Department of the Treasury
               HSPD-12 Initiative Resulted in Misuse of Federal Government
                                        Resources



                                                                 Appendix III

                         Report Distribution List

Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief Information Officer OS:CIO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OS:A
       Chief Information Officer OS:CIO




                                                                       Page 18
                    Lack of Proper IRS Oversight of the Department of the Treasury
                     HSPD-12 Initiative Resulted in Misuse of Federal Government
                                              Resources



                                                                                                     Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Inefficient Use of Resources – Actual; $3.5 million (see page 4).

Methodology Used to Measure the Reported Benefit:
The outcome measure is reported using actual contract amounts and support for arriving at the
amounts listed. The PMO made unnecessary purchases totaling approximately $3.5 million.
The following costs could have been avoided.
    •    $1,940,397 spent to purchase 350,000 PKI1 certificates in March and September 2005.
         PKI certificates will be needed in the future so employees can use their identification
         cards to access computer systems; however, the IRS does not expect to use the cards at
         this time. The certificates procured in 2005 will expire in 2008; as of August 2007, only
         12 had been issued. Current renewal fees for 50,000 2-year certificates will cost the IRS
         an additional $1.7 million.
    •    $837,616 spent to purchase 18 PKI servers in September 2005 that were never used for
         the HSPD-12 program. We were advised that some of the servers have been used on a
         very limited, intermittent basis for other IRS projects. The servers are located at four
         different locations and are inventoried and categorized as being used for “development.”
         The IRS Enterprise Life Cycle2 is divided into five milestones and requires the purchase
         of hardware and software in the fourth milestone of a project. However, the program had
         not yet exited the first milestone of the Enterprise Life Cycle at the time the servers were
         purchased.
    •    $431,035 spent to establish an identification badge laboratory to create a test environment
         for issuing HSPD-12 identification badges. The laboratory included a computer for the
         initial processing of employees, a credential verification system, and an identification

1
  PKI is an encryption system of digital certificates and other authorities that verify and authenticate the validity of
each party involved in an electronic transaction.
2
  The Enterprise Life Cycle is a proven set of best practices that enhance the chances for successfully managing
change in IRS business processes and systems. See Appendix V for additional details.
                                                                                                                Page 19
            Lack of Proper IRS Oversight of the Department of the Treasury
             HSPD-12 Initiative Resulted in Misuse of Federal Government
                                      Resources



    card printer. The laboratory has been closed and deemed unnecessary now that the
    Department of the Treasury (the Treasury) is planning to use the GSA shared services
    provider for card issuance. The PMO did not follow the Enterprise Life Cycle when
    purchasing the lab equipment. Pilot programs are normally released during the fourth
    milestone; the HSPD-12 program had not exited the first milestone when the items were
    purchased.
•   $91,618 spent in Fiscal Year 2007 to reimburse the GSA for preparing a Request for
    Procurement for acquiring another contractor’s services. The purpose of the contract was
    to assist the PMO in meeting the needs of the Treasury’s own HSPD-12 identification
    card system. The contract to provide these services was cancelled after the Treasury
    decided to use the GSA shared services provider for all identification card services, and a
    contractor was never selected. The PMO was aware that other options were available at
    the time; the Request for Procurement was never used to solicit bids.
•   $188,160 paid to a contractor for 1 person to provide clerical support over an 11-month
    period. The clerk was responsible for processing documents, maintaining and updating
    the PMO contact list, assigning and tracking equipment, maintaining calendars and
    meetings, and processing trip reports and was billed at $128 per hour. Similar duties
    could have been provided to the PMO using resources already available at the IRS.




                                                                                       Page 20
                Lack of Proper IRS Oversight of the Department of the Treasury
                 HSPD-12 Initiative Resulted in Misuse of Federal Government
                                          Resources



                                                                                    Appendix V

                    Enterprise Life Cycle Overview

The Enterprise Life Cycle defines the processes, products, techniques, roles, responsibilities,
policies, procedures, and standards associated with planning, executing, and managing business
change. It includes redesign of business processes; transformation of the organization; and
development, integration, deployment, and maintenance of the related information technology
applications and infrastructure. Its immediate focus is the IRS Business Systems Modernization
program. Both the IRS and its contractors must follow the Enterprise Life Cycle in
developing/acquiring business solutions for modernization projects.

Life-Cycle Processes
The life-cycle processes of the Enterprise Life Cycle are divided into the following six phases:
   •   Vision and Strategy - This phase establishes the overall direction and priorities for
       business change for the enterprise. It also identifies and prioritizes the business or system
       areas for further analysis.
   •   Architecture - This phase establishes the concept/vision, requirements, and design for a
       particular business area or target system. It also defines the releases for the business area
       or system.
   •   Development - This phase includes the analysis, design, acquisition, modification,
       construction, and testing of the components of a business solution. It also includes
       routine, planned maintenance of applications.
   •   Integration - This phase includes the integration, testing, piloting, and acceptance of a
       release. In this phase, the integration team brings together individual work packages of
       solution components developed or acquired separately during the Development phase.
       Application and technical infrastructure components are tested to determine if they
       interact properly. If appropriate, the team conducts a pilot to ensure all elements of the
       business solution work together.
   •   Deployment - This phase includes preparation and release of a system to actual sites.
       During this phase, the deployment team puts the solution release into operation at target
       sites.
   •   Operations and Support - This phase addresses the ongoing operations and support of
       the system. It begins after the business processes and system(s) have been installed and
       have begun performing business functions. It encompasses all of the operations and

                                                                                            Page 21
                Lack of Proper IRS Oversight of the Department of the Treasury
                 HSPD-12 Initiative Resulted in Misuse of Federal Government
                                          Resources



       support processes necessary to deliver the services associated with managing all or part
       of a computing environment.
       The Operations and Support phase includes the scheduled activities (e.g., planned
       maintenance, systems backup, and production output) as well as the nonscheduled
       activities (e.g., problem resolution and service request delivery, including emergency
       unplanned maintenance of applications). It also includes the support processes required
       to keep the system up and running at the contractually specified level.

Management Processes
In addition to the life-cycle processes, the Enterprise Life Cycle addresses the various
management areas at the process level. The management areas include:
   •   IRS Governance and Investment Decision Management - This area is responsible for
       managing the overall direction of the IRS, determining where to invest, and managing the
       investments over time.
   •   Program Management and Project Management - This area is responsible for
       organizing, planning, directing, and controlling the activities within the program and its
       subordinate projects to achieve the objectives of the program and deliver the expected
       business results.
   •   Architectural Engineering/Development Coordination - This area is responsible for
       managing the technical aspects of coordination across projects and disciplines, such as
       managing interfaces, controlling architectural changes, ensuring architectural compliance,
       maintaining standards, and resolving issues.
   •   Management Support Processes - This area includes common management processes,
       such as quality management and configuration management that operate across multiple
       levels of management.

Milestones
The Enterprise Life Cycle establishes a set of repeatable processes and a system of milestones,
checkpoints, and reviews that reduce the risks of system development, accelerate the delivery of
business solutions, and ensure alignment with the overall business strategy. The Enterprise Life
Cycle defines a series of milestones in the life-cycle processes. Milestones provide for
“go/no-go” decision points in the project and are sometimes associated with funding approval to
proceed. They occur at natural breaks in the process where there is new information regarding
costs, benefits, and risks and where executive authority is necessary for next-phase expenditures.
There are five milestones during the project life cycle:



                                                                                           Page 22
            Lack of Proper IRS Oversight of the Department of the Treasury
             HSPD-12 Initiative Resulted in Misuse of Federal Government
                                      Resources



•   Milestone 1 - Business Vision and Case for Action. In the activities leading up to
    Milestone 1, executive leadership identifies the direction and priorities for IRS business
    change. These guide which business areas and system development projects are funded
    for further analysis. The primary decision at Milestone 1 is to select Business Systems
    Modernization projects based on both the enterprise-level Vision and Strategy and the
    enterprise architecture.
•   Milestone 2 - Business Systems Concept and Preliminary Business Case. The
    activities leading up to Milestone 2 establish the project concept, including requirements
    and design elements, as a solution for a specific business area or business system. A
    preliminary business case is also produced. The primary decision at Milestone 2 is to
    approve the solution/system concept and associated plans for a modernization initiative
    and to authorize funding for that solution.
•   Milestone 3 - Business Systems Design and Baseline Business Case. In the activities
    leading up to Milestone 3, the major components of the business solution are analyzed
    and designed. A baseline business case is also produced. The primary decision at
    Milestone 3 is to accept the logical system design and associated plans and to authorize
    funding for development, test, and (if chosen) pilot of that solution.
•   Milestone 4 - Business Systems Development and Enterprise Deployment Decision.
    In the activities leading up to Milestone 4, the business solution is built. The Milestone 4
    activities are separated by two checkpoints. Activities leading up to Milestone 4A
    involve further requirements definition, production of the system’s physical design, and
    determination of the applicability of fixed-price contracting to complete system
    development and deployment. To achieve Milestone 4B, the system is integrated with
    other business systems and tested, piloted (usually), and prepared for deployment. The
    primary decision at Milestone 4B is to authorize the release for enterprisewide
    deployment and commit the necessary resources.
•   Milestone 5 - Business Systems Deployment and Postdeployment Evaluation. In the
    activities leading up to Milestone 5, the business solution is fully deployed, including
    delivery of training on use and maintenance. The primary decision at Milestone 5 is to
    authorize the release of performance-based compensation based on actual, measured
    performance of the business system.




                                                                                        Page 23
  Lack of Proper IRS Oversight of the Department of the Treasury
   HSPD-12 Initiative Resulted in Misuse of Federal Government
                            Resources



                                                   Appendix VII

Management’s Response to the Draft Report




                                                           Page 26
Lack of Proper IRS Oversight of the Department of the Treasury
 HSPD-12 Initiative Resulted in Misuse of Federal Government
                          Resources




                                                         Page 27
Lack of Proper IRS Oversight of the Department of the Treasury
 HSPD-12 Initiative Resulted in Misuse of Federal Government
                          Resources




                                                         Page 28
Lack of Proper IRS Oversight of the Department of the Treasury
 HSPD-12 Initiative Resulted in Misuse of Federal Government
                          Resources




                                                         Page 29
Lack of Proper IRS Oversight of the Department of the Treasury
 HSPD-12 Initiative Resulted in Misuse of Federal Government
                          Resources




                                                         Page 30
Lack of Proper IRS Oversight of the Department of the Treasury
 HSPD-12 Initiative Resulted in Misuse of Federal Government
                          Resources




                                                         Page 31
Lack of Proper IRS Oversight of the Department of the Treasury
 HSPD-12 Initiative Resulted in Misuse of Federal Government
                          Resources




                                                         Page 32
